                                                                 Issue Date
                                                                    November 20, 2007
                                                                 Audit Report Number
                                                                    2008-PH-1002




TO:        Brian D. Montgomery, Assistant Secretary for Housing – Federal Housing
            Commissioner, H



FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
             Office, 3AGA

SUBJECT:   National City Mortgage, Plymouth Meeting, Pennsylvania, Generally
            Complied with HUD Requirements in Originating FHA-Insured Single-
            Family Loans


                                  HIGHLIGHTS

 What We Audited and Why

           We audited the Plymouth Meeting, Pennsylvania, branch of National City
           Mortgage (branch office), a supervised direct endorsement lender approved to
           originate Federal Housing Administration (FHA) single-family mortgage loans.
           We selected the branch office because its default rate was above the state’s
           default rate. Our objective was to determine whether the branch office complied
           with U.S. Department of Housing and Urban Development (HUD) regulations,
           procedures, and instructions in the origination and quality control review of FHA
           loans.

 What We Found

           The branch office generally complied with HUD regulations, procedures, and
           instructions in the origination and quality control review of FHA-insured single-
                 family loans. However, two of eight loans selected for review1 were not originated
                 in accordance with HUD requirements. The branch office did not properly
                 document borrowers’ qualifying ratios and did not properly verify assets for the two
                 loans, originally valued at more than $181,000. The deficiencies occurred because
                 the branch office did not exercise due diligence in the underwriting of the loans,
                 causing an unnecessary increased risk to the FHA insurance fund.

                 In addition, the branch office charged ineligible commitment fees and/or
                 overcharged for credit reports, contrary to HUD regulations, in six of the eight cases
                 reviewed. As a result, borrowers incurred $857 in unnecessary costs.

    What We Recommend

                 We recommend that HUD’s Assistant Secretary for Housing – Federal Housing
                 Commissioner require National City Mortgage to

                     •   Indemnify HUD $198,389 2 for two loans, which it issued contrary to
                         HUD’s loan origination requirements;

                     •   Reimburse borrowers $857 in overcharges; and

                     •   Emphasize its policies, procedures, and controls to branch office staff to
                         ensure that the underwriters consistently follow HUD’s underwriting
                         requirements.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided a draft report to the branch office on October 31, 2007. We
                 discussed the report with the branch office during the audit and at an exit
                 conference on November 6, 2007. We requested a written response by
                 November 15, 2007. The branch office provided written comments to our draft
                 report on November 13, 2007. The complete text of the branch office’s response,
                 along with our evaluation of that response, can be found in appendix B of this
                 report.



1
  The eight loans were originally valued at more than $789,000.
2
  This amount is the unpaid principal balance of $198,389. The projected loss to HUD is $57,533 based on HUD’s
insurance fund average loss rate of 29 percent.


                                                       2
                             TABLE OF CONTENTS


Background and Objectives                                                         4

Results of Audit
        Finding: The Branch Office Generally Complied with HUD Requirements in the 5
        Origination and Quality Control Review of FHA-Insured Single-Family Loans

Scope and Methodology                                                             8

Internal Controls                                                                 9

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use            10
   B.   Auditee Comments and OIG’s Evaluation                                     11
   C.   Schedule of Case File Discrepancies                                       14
   D.   Schedule of Ineligible and Overcharged Fees                               15
   E.   Narrative Case Presentations                                              16




                                              3
                     BACKGROUND AND OBJECTIVES


The U.S. Department of Housing and Urban Development’s (HUD) strategic plan states that part
of its mission is to increase homeownership, support community development, and increase
access to affordable housing free from discrimination.

The National Housing Act, as amended, established the Federal Housing Administration (FHA),
an organizational unit within HUD. FHA provides insurance for lenders against loss on single-
family home mortgages.

In 1983, HUD implemented the direct endorsement program, which authorized approved lenders
to underwrite loans without HUD’s prior review and approval. HUD can place them on credit
watch status or terminate their approval if their rate of defaults and claims exceeds the normal
rate for the area. Many sanctions are available for taking actions against lenders or others who
abuse the program.

National City Mortgage is a direct endorsement lender for FHA loans. Its corporate office is
located in Miamisburg, Ohio. National City Mortgage’s Plymouth Meeting, Pennsylvania,
branch office issued 20 FHA loans between April 2005 and March 2007 that defaulted within the
first two years. Of the 20 loans, valued at more than $2.4 million, 16, valued at approximately
$2 million, defaulted after 12 or fewer payments. We reviewed 8 of the 16 loans valued at
approximately $789,000.

Our objective was to determine whether National City Mortgage’s Plymouth Meeting,
Pennsylvania, branch office complied with HUD regulations, procedures, and instructions in the
origination and quality control review of FHA loans.




                                               4
                                       RESULTS OF AUDIT

Finding 1: The Branch Office Generally Complied with HUD
Requirements in the Origination and Quality Control Review of FHA-
Insured Single-Family Loans
The branch office generally complied with HUD requirements in its origination and quality
control review of FHA loans; however, it did not properly document borrowers’ qualifying ratios
and did not properly verify assets in accordance with HUD requirements for two of eight loans
reviewed, originally valued at more than $789,000. The deficiencies occurred because the
branch office did not exercise due diligence in the underwriting of the loans, causing an
unnecessary increased risk to the FHA insurance fund. Therefore, National City Mortgage
should indemnify HUD $198,389 3 for the two defaulted loans.



    The Branch Office Did Not
    Properly Document a
    Borrower’s Qualifying Ratios


                      In one of the sample cases reviewed, the branch office did not adequately support
                      the borrower’s rental income when calculating the qualifying ratios. The rental
                      income was not reflected on the borrower’s tax returns, and should not have been
                      included in the calculation of the borrower’s qualifying ratios. When using the
                      supportable income only (i.e., without the rental income), the total fixed payment-
                      to-income ratio was approximately 52 percent, which exceeded HUD’s
                      established guideline.

                      HUD requirements state that the ratio of total fixed payment to effective income
                      may not exceed the benchmark guideline of 43 percent. HUD requirements also
                      state that rental income may be considered effective income if shown on the
                      borrower’s tax returns. Otherwise, the income only may be considered a
                      compensating factor and must be documented adequately by the lender. Further,
                      HUD requirements state that a Schedule E of IRS (Internal Revenue Service)
                      Form 1040 and a current lease are required to verify all rental income.




3
    See footnote 2.


                                                       5
    The Branch Office Did Not
    Properly Verify a Borrower’s
    Funds to Close


                  For one of the sample cases reviewed, the branch office did not properly verify
                  the borrower’s cash on hand in the amount of $1,000, which was used for the
                  earnest money deposit. In addition, the borrower’s checking account had an
                  unexplained deposit in the amount of $800. There was no verification of deposit
                  or other evidence to indicate the sources of funds were properly verified.

                  HUD requirements state 4 that borrowers who have saved cash at home and are
                  able to adequately demonstrate the ability to do so are permitted to have this
                  money included as an acceptable source of funds to close the mortgage. To
                  include such funds in assessing the homebuyer’s cash assets for closing, the
                  money must be verified–whether deposited in a financial institution or held by the
                  escrow/title company–and the borrower must provide satisfactory evidence of the
                  ability to accumulate such savings. The asset verification process requires the
                  borrower to explain in writing how such funds were accumulated and the amount
                  of time taken to do so. The lender must determine reasonableness of the
                  accumulation of the funds based on the borrower’s income stream, the period
                  during which the funds were saved, the borrower’s spending habits, documented
                  expenses, and the borrower’s history of using financial institutions. In addition,
                  HUD requires 5 the lender to verify savings and checking accounts. A verification
                  of deposit, along with the most recent bank statement, may be used to accomplish
                  this verification. If there is a large increase in an account or the account was
                  opened recently, the lender must obtain a credible explanation of the source of
                  those funds.

The Branch Office Charged
Ineligible Commitment Fees
and Overcharged for Credit
Reports


                  HUD Handbook 4000.2, paragraph 1-9, provides that lenders are permitted to
                  charge a commitment fee to guarantee in writing the interest rate and discount
                  points for a specific period or to limit the extent to which they may change.
                  Lenders are expected to honor such commitments. The branch office charged
                  ineligible commitment fees in four of the eight loans reviewed totaling $800.
                  Three loans lacked documentation, and one loan contained an unsigned lock-in
                  fee agreement to substantiate that the borrowers agreed to lock in their loans.


4
    HUD Handbook 4155.1, REV-5, paragraph 2-10(M).
5
    HUD Handbook 4155.1, REV-5, paragraph 2-10(B).


                                                     6
                      HUD Handbook 4000.2, paragraph 5-2, identifies the type of costs, such as
                      obtaining credit report fees, that a lender is allowed to charge a borrower. The
                      charges are limited to actual cost. The branch office overcharged borrowers for
                      credit report fees in three of the eight loans reviewed. The overcharge totaled
                      $57.

    Conclusion

                      The branch office generally complied with HUD regulations, procedures, and
                      instructions in the origination and quality control review of FHA loans. However,
                      it did not properly document borrowers’ qualifying ratios and did not properly
                      verify assets in accordance with HUD requirements for two of the loans it
                      originated. The deficiencies occurred because the branch office did not exercise
                      due diligence in the underwriting of the loans, causing HUD to assume
                      unnecessarily high risk when it insured the loans. Therefore, National City
                      Mortgage should indemnify HUD $198,389 6 for the two defaulted loans (see
                      appendixes C and E for more detail).

    Recommendations

                      We recommend that HUD’s Assistant Secretary for Housing – Federal Housing
                      Commissioner require National City Mortgage to

                      1A.    Indemnify HUD $198,389 7 for two loans, which it issued contrary to
                             HUD’s loan origination requirements.

                      1B.    Reimburse borrowers $857 in overcharges; and

                      1C.    Emphasize its policies, procedures, and controls to branch office staff to
                             ensure that the underwriters consistently follow HUD’s underwriting
                             requirements.




6
    See footnote 2.
7
    See footnote 2.


                                                       7
                         SCOPE AND METHODOLOGY


We targeted lenders with high default rates and selected National City Mortgage’s Plymouth
Meeting, Pennsylvania, branch office because its percentage of defaults in the first two years was
5.48 percent, compared with the Pennsylvania state average of 3.66 percent. We then ran queries
in HUD’s Neighborhood Watch system to identify the branch office’s number of defaulted loans
within the first two years and the number of payments made against those loans. We found that
the branch office issued 20 loans, valued at more than $2.4 million, that defaulted within the first
two years. Of the 20 loans, 16, valued at approximately $2 million, defaulted after 12 or fewer
payments. We sampled eight loans with nine or fewer payments for our survey review. The
eight loans were valued at approximately $789,000. To determine whether the branch office
complied with HUD regulations, procedures, and instructions in the origination and quality
control review of FHA loans, we performed the following:

   •   Reviewed applicable HUD handbooks and mortgagee letters;

   •   Reviewed case files for the eight sample loans;

   •   Examined records and related documents of National City Mortgage and its Plymouth
       Meeting, Pennsylvania, branch office; and

   •   Conducted interviews with officials and employees of National City Mortgage and its
       Plymouth Meeting, Pennsylvania, branch office, as well as employees of the HUD
       Quality Assurance Division.

In addition, we relied in part on data maintained by HUD in the Neighborhood Watch system.
Although we did not perform a detailed assessment of the reliability of the data, we performed a
minimal level of testing and found the data adequately reliable for our purposes.

Our review period was from April 2005 through March 2007. When applicable, the review
period was expanded to include data through August 2007.

We performed our review in accordance with generally accepted government auditing standards.




                                                 8
                             INTERNAL CONTROLS


Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

                  •   Loan origination process – Policies and procedures that management has in
                      place to reasonably ensure that the loan origination process complies with
                      HUD program requirements.

                  •   Quality control plan – Policies and procedures that management has in place
                      to reasonably ensure implementation of HUD quality control requirements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              We did not identify any significant weaknesses.




                                                9
                                   APPENDIXES


Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation             Ineligible    Funds to be put
                         number                costs 1/     to better use 2/
                                1A                                 $57,533
                                1B                $857



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, implementation of our
     recommendation to indemnify loans that were not originated in accordance with HUD
     requirements will reduce the risk of loss to the FHA insurance fund. The above amount
     reflects HUD statistics, which show that the FHA, on average, loses 29 percent of the
     claim paid for each property (see appendix C).




                                            10
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         11
12
                         OIG Evaluation of Auditee Comments


Comment 1   We acknowledge that the earnest money deposit was not subject to verification
            because it did not exceed 2 percent of the sales price. However, HUD requires
            lenders to verify cash saved at home that a borrower uses towards closing costs.
            In addition to other factors, lenders must consider a borrower’s history of using
            financial institutions and spending habits when determining the reasonableness of
            the borrower’s cash on hand used towards mortgage closing costs (HUD
            Handbook 4155.1 REV-5, paragraph 2-10 (M)). The borrower’s mortgage case
            file included evidence of three checking accounts and one savings account. At
            least one of the checking accounts was active during the time frame in which the
            loan was underwritten. The account statement showed that the borrower was
            charged unavailable funds fees for three transactions, as well as an overdraft fee
            for one transaction. The mortgage case file did not include sufficient
            documentation to indicate that the branch office considered the borrower’s history
            of using financial institutions and spending habits in determining the
            reasonableness of the $1,000 cash on hand which made up more than 25 percent
            of the borrower’s funds needed to close.

            In addition, the borrower’s checking account had an unexplained deposit in the
            amount of $800. HUD requires lenders to obtain a credible explanation of the
            source of funds when a borrower’s account shows a large increase (HUD
            Handbook 4155.1 REV-5, paragraph 2-10 (B)). With the exception of $1,700 in
            verified gift funds, the bank account statements for the two-month period covered
            in the underwriting review indicated that the borrower generally made deposits
            ranging from $50 to $357. As a result, we believe the branch office should have
            obtained and documented a credible explanation for the source of the borrower’s
            $800 deposit.




                                            13
Appendix C

              SCHEDULE OF CASE FILE DISCREPANCIES



                                          Unpaid
            Case           Mortgage      principal      Estimated Unsupported           High
           number          amount         balance         loss*      assets             ratio
         441-7670050       $124,019      $138,726        $40,231                         X
         441-7654833       $ 57,545      $ 59,663        $17,302       X
            Totals         $181,564      $198,389        $57,533        1                 1

* This amount was calculated by taking 29 percent of the unpaid principal balance for the loans. On
average, HUD loses 29 percent of the claim amount paid.




                                                   14
Appendix D

  SCHEDULE OF INELIGIBLE AND OVERCHARGED FEES



                                                       Total
                        Ineligible Overcharged    ineligible and
                       commitment credit report    overcharged
         Case number       fees        fees             fees
         441-7670050     $200.00                     $200.00
         441-7668300     $200.00                     $200.00
         441-7648052     $200.00                     $200.00
         441-7651538     $200.00     $17.03          $217.03
         441-7710382                 $28.80           $28.80
         441-7701295                 $11.22           $11.22
            Total        $800.00     $57.05          $857.05




                                15
Appendix E

                     NARRATIVE CASE PRESENTATIONS

Case number: 441-7670050

Mortgage amount: $124,019

Date of loan closing: July 19, 2005

Status: Repayment

Payments before first default reported: Three

Unpaid principal balance: $138,726

Summary:

               The branch office did not properly document qualifying ratios and charged a
               commitment fee without a lock-in agreement.

Pertinent Details:

               The branch office did not properly document qualifying ratios.

               The total fixed payment-to-effective income ratio may not exceed the benchmark
               guideline of 43 percent (HUD Mortgagee Letter 2005-16). Rental income may be
               considered effective income if shown on the borrower’s tax returns. Otherwise,
               the income only may be considered a compensating factor and must be
               documented adequately by the lender. A Schedule E of IRS Form 1040 and a
               current lease are required to verify all rental income (HUD Handbook 4155.1,
               REV-5, paragraph 2-7(M)).

               In this case, the branch office did not adequately support the borrower’s rental
               income when calculating the fixed payment-to-income ratio. The rental income
               was not reflected on the borrower’s tax returns, and should not have been
               included in the calculation of the borrower’s qualifying ratios. Based on the
               borrower’s supportable income only (i.e., without the unsupported rental income),
               the total fixed payment-to-income ratio is almost 52 percent, which is above the
               acceptable ratio according to HUD’s guidelines.




                                                16
The branch office charged a lock-in fee without a written agreement.

Lenders are permitted to charge a commitment fee to guarantee an interest rate
and discount points. The guarantee must be in writing (HUD Handbook 4000.2,
paragraph 1-9). In this case, the branch office charged the borrower a $200 lock-
in fee without a written agreement.




                                17
Case number: 441-7654833

Mortgage amount: $57,545

Date of loan closing: April 20, 2005

Status: First legal action to commence foreclosure

Payments before first default reported: Seven

Unpaid principal balance: $59,663

Summary:

               The branch office did not properly verify the borrower’s funds to close.

Pertinent Details:

               According to HUD requirements, borrowers who have saved cash at home and are
               able to demonstrate adequately the ability to do so are permitted to have this
               money included as an acceptable source of funds to close the mortgage. To
               include such funds in assessing the homebuyer’s cash assets for closing, the
               money must be verified–whether deposited in a financial institution or held by the
               escrow/title company–and the borrower must provide satisfactory evidence of the
               ability to accumulate such savings. The asset verification process requires the
               borrower to explain in writing how such funds were accumulated and the amount
               of time taken to do so.

               The lender must determine reasonableness of the accumulation of the funds based
               on the borrower’s income stream, the period during which the funds were saved,
               the borrower’s spending habits, documented expenses, and the borrower’s history
               of using financial institutions (HUD Handbook 4155.1, REV-5, paragraph 2-
               10(M)). In addition, if the amount of the earnest money deposit appears excessive
               based on the borrower’s history of accumulating savings, the lender must verify
               with documentation the deposit amount and the source of funds. Satisfactory
               documentation includes a copy of the borrower’s cancelled check. A certification
               from the deposit holder acknowledging receipt of funds and separate evidence of
               the source of funds is also acceptable. Evidence of source of funds includes a
               verification of deposit or bank statement showing that at the time the deposit was
               made, the average balance was sufficient to cover the amount of the earnest
               money deposit.

               HUD also requires verification of savings and checking accounts. A verification
               of deposit, along with the most recent bank statement, may be used to verify
               savings and checking accounts. If there is a large increase in an account or the




                                                18
account was opened recently, the lender must obtain a credible explanation of the
source of those funds (HUD Handbook 4155.1, REV-5, paragraph 2-10(B)).

In this case, the branch office did not properly verify the borrower’s cash on hand
in the amount of $1,000, which was used for the earnest money deposit. In
addition, the borrower’s checking account had unexplained deposit in the amount
of $800. There was no verification of deposit or other evidence to indicate the
sources of funds were properly verified.




                                 19
